No. 20-1223

In the Supreme Court of the United States
JOHNSON & JOHNSON and
JOHNSON & JOHNSON CONSUMER, INC.,
Petitioners,
V.
GAIL L. INGHAM, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
Missouri Court of Appeals for the Eastern District
BRIEF OF NATIONAL WOMEN’S HEALTH
NETWORK AS AMICUS CURIAE IN SUPPORT
OF RESPONDENTS
DENYSE F. CLANCY
KAZAN, MCCLAIN,
SATTERLEY & GREENWOOD
55 Harrison Street
Oakland, CA 94607
(510) 302-1000
dclancy@kazanlaw.com
JOHN EDDIE WILLIAMS
BRIAN ABRAMSON
WILLIAMS HART BOUNDAS
EASTERBY LLP
8441 Gulf Freeway
Houston, TX 77017
(713) 230-2200
jwilliams@whlaw.com

ERIK S. JAFFE
(Counsel of Record)
SCHAERR | JAFFE LLP
1717 K Street, NW
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Amicus Curiae

TABLE OF CONTENTS
Table of Contents .......................................................... i
Table of Authorities ..................................................... ii
Interest of Amicus Curiae and
Rule 29.6 Statement .............................................. 1
Introduction and Summary of Argument ................... 2
Argument ..................................................................... 4
I. The Evidence at Trial Amply Supports the
Conclusion that J&J’s Conduct Was
Egregious and Warranted Substantial
Punitive Damages. ................................................. 4
A. J&J has known since the 1950s its talc
contains asbestos. ............................................. 5
B. The evidence demonstrated that J&J
sought to conceal the dangers of its talc
for decades. ...................................................... 10
C. The evidence demonstrated severe
physical harm, and J&J’s indifference to
the human costs of its deceit. ......................... 17
II. The Link between Asbestos and Ovarian
Cancer Is Well Supported by Strong Science
over Decades. ........................................................ 20
Conclusion .................................................................. 24

ii
TABLE OF AUTHORITIES
Cases
Carl v. Johnson & Johnson,
464 N.J. Super. 446 (2020) .................................. 21
Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008) .............................................. 23
In re Johnson & Johnson Talcum
Powder Prods., 2020 WL 8968851
(D.N.J. 2020) ................................................. passim
State Farm Mut. Auto. Ins. Co. v.
Campbell, 538 U.S. 408 (2003) ...................... 2, 4, 5
Other Authorities
Susan Berfield, Jef Feeley & Margaret
Cronin Fisk, Johnson & Johnson Has
a Baby Powder Problem, BLOOMBERG,
Mar.
31,
2016,
https://www.bloomberg.com/features/2
016-baby-powder-cancer-lawsuits/
(visited Apr. 19, 2021) .................................... 18, 19
M.
Isabelle
Chaudry
&
Sarah
Christopherson, Dangerously Flawed
Study Creates False Sense of
Complacency: Why Women Should
Still Avoid Talc-Based Powder,
National Women’s Health Network,
Jan.
14,
2020,
available
at
https://nwhn.org/why-women-shouldstill-avoid-talc-based-powder (visited
April 18, 2021) ........................................................ 1

iii
Jef Feeley, J&J Denials of Asbestos in
Baby Powder Spur Criminal Probe,
BLOOMBERG, July 12, 2019, available at
https://www.bloomberg.com/news/articl
es/2019-07-12/j-j-denials-of-asbestos-inbaby-powder-spur-us-criminal-probe
(visited Apr. 19, 2021) .......................................... 14
Lisa Girion, Johnson & Johnson knew
for decades that asbestos lurked in its
Baby Powder, REUTERS, Dec. 14, 2018,
available
at
https://www.reuters.com/investigates/s
pecial-report/johnsonandjohnsoncancer/ (visited April 19, 2021) ........................ 2, 15
J&J Faces U.S. Criminal Probe Related
to Baby Powder, REUTERS, July 12,
2019,
available
at
https://www.reuters.com/article/usjohnson-johnson-talc-probe/jj-faces-us-criminal-probe-related-to-babypowder-bloomberg-idUSKCN1U726J
(visited Apr. 19, 2021) .......................................... 14
Jennifer S. Pierce, Evaluation of the
Presence of Asbestos in Cosmetic
Talcum Products, 29 INHALATION
TOXICOLOGY 443, 445 (2017) ................................ 10

iv
Soo Youn, DOJ and SEC are
investigating Johnson & Johnson over
asbestos-related claims in its baby
powder, ABC NEWS, Feb. 21, 2019,
available
at
https://abcnews.go.com/Business/dojsec-investigating-johnson-johnsonasbestos-relatedclaims/story?id=61209442
(visited
Apr. 19, 2021) ....................................................... 14

INTEREST OF AMICUS CURIAE AND
RULE 29.6 STATEMENT1
Amicus curiae the National Women’s Health Network improves the health of all women by influencing
policy and supporting informed consumer decisionmaking. The Network is supported by 8,000 individual and organizational members and accepts no financial support from pharmaceutical companies, tobacco
companies, or device manufacturers. Since it was
founded in 1975, the Network has worked to ensure
that safe drugs, devices, and medical procedures are
available to all women. The Network is interested in
this case because it believes that effective state tort
law remedies are necessary to protect women from
dangerous products, especially those that have been
specifically targeted at women. See, e.g., M. Isabelle
Chaudry & Sarah Christopherson, Dangerously
Flawed Study Creates False Sense of Complacency:
Why Women Should Still Avoid Talc-Based Powder,
National Women’s Health Network, Jan. 14, 2020,
available at https://nwhn.org/why-women-shouldstill-avoid-talc-based-powder (visited April 18, 2021).
Amicus is not publicly traded and has no parent
corporations, and no publicly traded corporation owns
10% or more of amicus.
No counsel for a party authored this brief in whole or in
part, nor did any person or entity, other than amicus, its members, or its counsel, make a monetary contribution intended to
fund the preparation or submission of this brief. Counsel for the
parties were notified of amicus’s intent to file this brief more
than 10 days prior to the filing deadline and have consented to
the filing of this brief.
1

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
Johnson & Johnson (J&J) engaged in a decadeslong, deadly scheme to conceal the dangers of asbestos in its talc-based Baby Powder. Despite its continuing protests, the presence of asbestos in talc generally, and in J&J talc products specifically, is not in
genuine dispute.2 The FDA has now recognized as
much, and J&J has withdrawn its talc products from
North American markets. Further, J&J concedes that
asbestos is a known cause of ovarian cancer and that
talc and asbestos were found in the tumors of women
who developed ovarian cancer.
Not surprisingly, J&J’s egregious conduct, including its continued denials and deception, resulted in a
substantial punitive damages award. The size of that
award is well-deserved, highly fact-bound, and does
not remotely raise issues of concern for this Court.
Because the amount of punitive damages in a particular case is a fact intensive inquiry that eschews
any “binding ratios” or “rigid benchmarks,” State
Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408,
425 (2003), amicus submits this brief to highlight the
extensive evidence of J&J’s reprehensible conduct
that amply supports the punitive damages award.
1. The jury below had overwhelming evidence that
J&J knew for decades that its talc sources and its talc
products contained asbestos and engaged in a con2 Lisa Girion, Johnson & Johnson knew for decades that asbestos lurked in its Baby Powder, REUTERS, Dec. 14, 2018, available
at
https://www.reuters.com/investigates/specialreport/johnsonandjohnson-cancer/ (visited April 19, 2021).

3
certed campaign to suppress that information. Indeed, J&J predicted in 1969 that there would be a
“furor” if it became known that asbestos was in its
talc. But instead of turning to cornstarch, a known
safer alternative, J&J elected to contact the “litigation” department. PX3.
Rather than be honest about the dangers inherent
in its talc products, J&J continued marketing those
products for use on babies, teenagers, and women,
ramped up its efforts to sell to Black and Hispanic
women, and prioritized profits and image over the
long-term health consequences from asbestos exposure. And those health consequences were severe:
Plaintiffs each developed ovarian cancer, a pernicious
and well-known consequence of exposure to asbestos.
Many of them are now dead, after months or years of
pain and suffering. The rest almost inevitably face
the same fate, as ovarian cancer has one of the lowest
cancer survival rates.
2. The jury below also had overwhelming evidence
that asbestos in talc causes ovarian cancer. It is undisputed that asbestos exposure causes ovarian cancer. And J&J knew since the early 1970’s that both
talc and asbestos had been documented in the tumors
of women with ovarian cancer. Numerous authoritative entities such as Department of Health and Human Services, the Environmental Protection Agency
(EPA), the International Agency for Research on
Cancer (IARC), the American Cancer Society, and the
National Cancer Institute have agreed that solid science confirms asbestos causes ovarian cancer. App.
80a. Accordingly, the federal multi-district litigation
(MDL) court overseeing all federal ovarian talc cancer

4
cases rejected J&J’s “no-causation” argument, finding
sufficient reliable evidence of causation to satisfy this
Court’s Daubert standard. In re Johnson & Johnson
Talcum Powder Prods., 2020 WL 8968851, at *50
(D.N.J. 2020).
In the end, J&J’s fact-bound attacks on the evidence supporting the jury’s verdict are unrelated to
the Questions Presented, and do not make such questions worthy of this Court’s limited time and resources.
Because the “most important indicium of the reasonableness of a punitive damages award is the degree of reprehensibility of the defendant’s conduct,”
State Farm, 538 U.S. at 419, the punitive damage
award falls squarely within this Court’s established
precedent and should raise no meaningful concern,
despite Petitioners’ dissatisfaction that the jury did
not credit their unsuccessful factual defenses.
ARGUMENT
I.

The Evidence at Trial Amply Supports the
Conclusion that J&J’s Conduct Was Egregious and Warranted Substantial Punitive
Damages.
No court has questioned this Court’s long-standing
holding that the most important factor in assessing
the constitutionality of a punitive damages award is
the reprehensibility of defendant’s behavior “based
upon the facts and circumstances of the defendant’s
conduct and the harm to the plaintiff.” State Farm,
538 U.S. at 425. J&J’s decades of purposeful concealment of lethal asbestos in its Baby Powder is at

5
the highest end of the reprehensibility continuum.
The court of appeals carefully reviewed the facts
showing that J&J “engaged in outrageous conduct because of an evil motive or reckless indifference,”
App. 85a, and maintained a single-digit multiplier of
compensatory to punitive damages. App. 101a; State
Farm, 538 U.S. at 425 (favorably comparing “[s]ingledigit multipliers” with otherwise questionable ratios
of hundreds-to-one). It should come as no surprise to
anyone that decades of insidious behavior leading to
tremendous suffering resulted in a substantial award
of punitive damages, and that result raises no due
process concerns, much less any legal issue worthy of
this Court’s attention.
A. J&J has known since the 1950s its talc
contains asbestos.
Talc is mined from the earth, as is asbestos, which
forms alongside talc. Asbestos is a well-known human
carcinogen and a long-established cause of ovarian
cancer, as recognized by HHS, EPA, the IARC, and
the National Cancer Institute, among others.
PX9324; PX100; PX9324; Tr.3344-45. There is no
known safe level of exposure to asbestos. PX7766.
The jury was presented with extensive and overwhelming evidence that J&J’s sources of talc and its
end products contain asbestos, and that J&J has
known that fact for decades. Yet J&J continues to relitigate those well-supported facts, despite the applicable standard of review requiring that the record be
viewed in the light most favorable to the verdict.
Pet. 2.

6
J&J’s own experts, personnel, and suppliers confirmed that J&J knew there was asbestos in its talc
sources and in its talc products. For example, J&J’s
expert geologist, Dr. Matthew Sanchez, conceded that
“you can find asbestiform tremolite I’m sure up and
down the State of Vermont in the mountain chain,”
including in J&J’s Vermont talc deposits. Tr.4016,
4025-26, 4058. One of J&J’s Talc suppliers, Imerys,
documented that tremolite and actinolite are “ubiquitous” in Vermont mines and that the “fibrous” (asbestiform) variety of “tremolite and actinolite” are “serious mineralogical contaminant[s]” of the Vermont
ore. PX712; Tr.4018, 4061; PX22.
J&J’s experts, employees, and outside testing labs
also admitted that asbestos was documented in J&J’s
talc sources repeatedly from 1950s through today.
See Tr.4064-4065 (Dr. Sanchez admitting that asbestos was repeatedly documented in J&J’s mine
sources); PX2370 (J&J executives documenting in
1971 that its Vermont talc mines contained “fibrous”
minerals tremolite and actinolite); PX6 & Tr.5373,
4053 (J&J testing agency McCrone detected asbestos
fibers in 1975 in samples of the J&J cosmetic talc).
Government agencies likewise documented the presence of asbestos in J&J’s talc sources. PX630 &
Tr.4075 (Mine Safety and Health Administration
1980s documentation of asbestos at a mill used to
supply J&J talc).
And J&J knew that its sources were contaminated
and that none of its talc mines were asbestos-free.
Tr.5331 & PX40 (“It’s our joint conclusion we should
not rely on the ‘clean mine’ approach as a protective
device for baby powder in the current asbestos or as-

7
bestos form controversy. We believe this mine to be
very clean. However, we’re also confident fiberforming or fiber-type materials could be found. The
usefulness of the ‘clean mine’ approach for asbestos
only is over.”).
Given the ample evidence and knowledge of asbestos in the mines from which J&J sourced its talc, it is
hardly surprising that the evidence also demonstrated that such asbestos also made it into J&J’s talc
products and that J&J was well-aware of that fact.
Indeed, J&J’s own experts conceded as much.
Tr.4039, 4040, 4048, 4053 (J&J geology expert conceded that J&J testing company had documented asbestos in both J&J’s mine ore and product “time after
time”).
Outside testing likewise confirmed the presence of
asbestos in J&J’s talc products. PX6804 (Colorado
School of Mines 1971 documentation of tremolite in “a
production batch of [J&J’s] product”); App. 85a &
PX1653 (early 1970s documentation from FDA scientist Dr. Lewin of asbestos in Johnson’s Baby Powder);
PX2 (2004 investigative TV report finding 3.8% anthophyllite asbestos in Johnson’s Baby Powder sent
to laboratory for analysis).
J&J’s own testing labs reached similar conclusions, and its executives recognized that the findings
of asbestos were “not new,” and were “confirmed both
by McCrone and Bill Ashton.” PX9; see also, PX1696
(J&J found tremolite in four samples of its Johnson’s
Baby Powder in 1973); Tr.4297 & PX13 (retained geologist Dr. Alice Blount informed J&J in the 1990s
that Johnson’s Baby Powder contains asbestos). Internally, J&J itself recognized it “cannot say” that its

8
talc products have “always” been asbestos-free. PX1;
Tr.4234-35.
Despite the decades-long knowledge by J&J and
others that its sources and products contained asbestos, its amicus, the Atlantic Legal Foundation (ALF),
takes issue with the asbestos testimony of a particular witness, Dr. William Longo, erroneously labeling
it “junk science.” ALF Amicus Br. 5-7, 18. Both the
court of appeals below and the trial court rejected
such baseless assertions, and for good reason.
Dr. Longo is the CEO of Materials Analytical Sciences, a laboratory specializing in the analysis of materials for asbestos content. In re Johnson & Johnson
Talcum Powder Prods., 2020 WL 8968851, at *17.
Dr. Longo served on the peer review group for the
EPA’s asbestos engineering program. Id. He served
on the American Society for Testing Materials
(“ASTM”) committee that developed the protocol for
testing materials with a transmission electron microscope (TEM). Id. In short, “[t]here is no dispute that
Dr. Longo is qualified to testify as an expert on the
issue of whether the subject talc products contain asbestos.” Id. Dr. Longo tested historical samples of
J&J’s talc products and found that twenty of the thirty-six bottles contained asbestos. App.54a.
Nonetheless, amicus ALF argues that Dr. Longo
did not actually find “asbestiform” asbestos in the
J&J talc samples he tested. But even J&J did not see
fit to raise this challenge to Dr. Longo on appeal below, likely because it presents the unsupportable
“confusing the minerology” defense rejected by the
EPA and even by J&J’s own talc supplier, Imerys.
PX9391; Tr.3956; Tr.3933; PX9; PX73. The asbestos

9
in J&J talc is asbestos by any public-health definition, and J&J’s and its amicus’s attempt to re-name
as “non-asbestos” fibers that are the same shape, size,
and chemistry as asbestos was resoundingly rejected
by the jury. Tr.3368-3369.
Dr. Longo’s methodology likewise is beyond reproof, as recognized by the federal MDL court handling J&J talc/ovarian cancer cases when it denied a
Daubert challenge to Dr. Longo’s methodology used to
identify asbestos in talc. In re Johnson & Johnson
Talcum Powder Prods., 2020 WL 8968851, at *18-20.
Indeed, J&J itself recognizes internally that the concentration method and TEM used by Dr. Longo are
the “most sensitive” and the “best method[s]” to identify asbestos in talc. Tr.4089; PX51.
Amicus ALF’s other complaint about Dr. Longo’s
asbestos testing is equally meritless. The suggestion,
ALF Amicus Br. 5, 19, that his samples were “possibly contaminated” (other than by J&J’s own talc
sources) echoes J&J’s chain-of-custody complaint that
the bottles were obtained second-hand, which was
soundly rejected at trial and on appeal. App. 54a-55a.
But the samples tested included talc that came directly from the J&J museum, which Dr. Longo found
contained asbestos, and the other samples were the
best available evidence at that time and were amply
authenticated to show they contained the original
J&J product. App.53a-56a.3 J&J eventually was re3 The various means of authentication are described by the
court of appeals and confirm the product was J&J’s. App. 55a.
The security of the containers and the lack of tampering likewise were the subject of evidence that confirmed the absence of

10
quired to produce more of its own historical talc samples, though not in time for use at trial here, and Dr.
Longo documented asbestos in 50 containers of the 72
J&J samples he tested. In re Johnson & Johnson
Talcum Prods., 2020 WL 8968851, at *17.
In short, there was overwhelming evidence for the
jury to conclude that J&J talc products contained asbestos, and that J&J knew this fact for decades.
Suggestions that this Court should ignore the jury’s
conclusions border on the frivolous.
B. The evidence demonstrated that J&J
sought to conceal the dangers of its
talc for decades.
Despite knowing that its talc products contained
asbestos, J&J engaged in a decades-long campaign to
conceal that fact from consumers and the government. Such prolonged and intentional deceit took
multiple forms.

tampering and the implausibility of backward contamination of
a talc bottle. Id.; see also Jennifer S. Pierce, Evaluation of the
Presence of Asbestos in Cosmetic Talcum Products, 29 INHALATION TOXICOLOGY 443, 445 (2017). And importantly, the types of
asbestos Dr. Longo documented in Johnson’s Baby Powder, and
that J&J itself detected in its talc, are not used for commercial
purposes in the United States, Tr.1150, Tr.1156, Tr.1223-24, Tr.
1483, Tr.3698, Tr.4017, Tr.4075, and hence could not have come
from “contamination” from household asbestos, such as attic insulation. In any event, Dr. Longo’s findings and methods merely
corroborated what J&J already knew from its own scientists and
outside labs, who repeatedly found asbestos in its products
throughout the 1950s, 1960s, 1970s, 1980s, 1990s, and 2000s.
Supra at 6-8.

11
First, J&J manipulated the testing and research
surrounding the connection between talc and asbestos, suppressing internal findings and forcing alterations in adverse reports. See, e.g., PX93; Tr.5361-65
(J&J managed to have McCrone redo its report and
the percentages of documented tremolite were deleted
from the revised, backdated report).
If asbestos was detected in J&J’s talc, J&J’s policy
was to send it to the RJ Lee laboratory to “re-test” the
sample. PX59; PX6973; Tr.3883, 3916. J&J’s talc
supplier Imerys described RJ Lee as a “whore” for the
talc industry. Tr.3839; PX19. Imerys’s scientists did
not “believe that RJ Lee are either capable or geologically sophisticated enough” to audit talc for asbestos.
Tr.3880; PX8364. And RJ Lee’s manipulative method
of “tilt[ing]” the microscopy stage to find a “talc diffraction pattern” was used to justify denying the
plain presence of asbestos. PX73. As criticized by
Imerys, RJ Lee would deceptively claim “that if you
can find a hint of a diffraction pattern from another
mineral while you are looking at the amphibole fiber,
then you can call the fiber ‘transitional’ and not truly
amphibole.” PX73.
In addition to manipulating testing results, J&J
also sought to manipulate outside scientific studies.
For example, it secretly funded, controlled, and even
drafted studies of talc miners and millers. Tr.5397;
Tr.4357-59. It stopped publications of books detailing
asbestos in talc. PX7489; Tr.5394. It caused talc to be
written out of the ASTM Dust/Talc method. Tr.54005401. And it worked hand-in-hand with its industry
trade organization, the Cosmetic, Toiletry, and Fragrance Association (CTFA) to fund a secret effort to

12
keep talc from being listed as a carcinogen in the National Toxicology Program. Tr.5401; PX9903; PX4150.
Second, J&J actively opposed accurate and sensitive testing methods, instead promoting an “industry
standard” test it knew was deficient at detecting hazardous levels of asbestos. One key method of detecting asbestos in talc is to “pre-concentrate” any sample
by centrifuging it such that the heavier asbestos particles fall to the bottom for collecting and testing, and
the lighter talc rises to the top. J&J’s own testing
companies, scientists and employees recognized that
it was essential to “pre-concentrate” samples of talc
in order to accurately detect asbestos contamination.
See PX1795 (Colorado School of Mines informed J&J
it is “essential” to “pre-concentrate” samples to find
the “needle in a haystack” of asbestos in talc);
Tr.4089 (J&J knew preconcentration and TEM are
the best methods for detecting asbestos fibers).
But J&J refused to allow the use of preconcentration, because it did not want asbestos detected in its talc. See PX51 (J&J complaining in 1973
that the “limitation of this [pre-concentrating] method is that it may be too sensitive”) (emphasis added);
PX26 & Tr.5288 (J&J complaining about FDA’s “disturbing proposal” in 1976 to use “concentration procedures” to analyze asbestos in cosmetic talc products
because it would “open up new problems with asbestos and talc minerals”); Tr.4072, 4079 (J&J testing
experts admitting he did not use the preconcentration technique notwithstanding that it
would “speed up and help that process” and help with
“identifying materials”). And J&J witnesses were
unabashed in admitting that they did not use the su-

13
perior technique in part because asbestos might be
found, and sales would plummet. Tr.4084; see also
PX58 (internal communication explaining “deliberate[]” exclusion of concentration technique, as inclusion would be against “worldwide company interests”).
Rather than use an accurate and sensitive method
of detecting asbestos, J&J pushed for an “industry
standard” of the least sensitive means of testing—the
J4-1 method, which mainly used x-ray diffraction.
Tr.4093 (J&J expert admitting x-ray diffraction
method is the “weakest in terms of sensitivity”);
Tr.5294, 5298 (J&J caused trade association to adopt
J4-1 method as industry standard). J&J and its trade
organization, the CTFA, knew internally that the
J4-1 method could not detect asbestos in talc with
“accuracy, reliability and practicality.”4 Tr.1451-53.
And again, J&J was quite overt in its reasons for
wanting to suppress better testing, admitting in internal documents that “[w]e believe it’s critical for
[the cosmetics trade association] to now recommend
these methods to the FDA before the art advances to
more sophisticated techniques with higher levels of
sensitization.” PX4767; Tr.5291.
With an intentionally insensitive testing protocol
in place as its testing standard, and refusing to use
the concentration method even when it infrequently
performed tests by TEM, J&J promptly used the resulting fraudulently negative results to justify continued sales. Tr.4093 (J&J policy that if J4-1 test “de4 J&J’s employee served as Chairman of the CTFA committee
on analytical methods. PX58.

14
tects” no asbestos, the talc is approved for sale). And
it continues to do so. In 2016, J&J wrote to the FDA,
attesting that “[n]o asbestos-form structures have ever been found during any testing.” PX131. And J&J’s
websites continue to tell the world that its talc is asbestos-free. Tr.5378; PX130.
Such continued deception causing deadly harm
makes it no surprise that J&J is now under criminal
investigation by the Department of Justice for its
concealment of the asbestos in its talc.5
Third, J&J maliciously sought to pressure, attack,
and discredit any source of scientific evidence showing asbestos in its talc.
In 1976, when the United States Department of
Health, Education and Welfare wrote to Vernon
Zeitz, the head of J&J’s Vermont Windsor mines,
about the safety of J&J’s talc, Mr. Zeitz recommended to J&J that J&J be ruthless in fending off any
questions about asbestos in talc: “[M]ost wars are not
won at peace talks around the conference table, but
5 See Jef Feeley, J&J Denials of Asbestos in Baby Powder
Spur Criminal Probe, BLOOMBERG, July 12, 2019, available at
https://www.bloomberg.com/news/articles/2019-07-12/j-j-denialsof-asbestos-in-baby-powder-spur-us-criminal-probe (visited Apr.
19, 2021); J&J Faces U.S. Criminal Probe Related to Baby PowJuly
12,
2019,
available
at
der,
REUTERS,
https://www.reuters.com/article/us-johnson-johnson-talc-probe/jjfaces-u-s-criminal-probe-related-to-baby-powder-bloombergidUSKCN1U726J (visited Apr. 19, 2021); Soo Youn, DOJ and
SEC are investigating Johnson & Johnson over asbestos-related
claims in its baby powder, ABC NEWS, Feb. 21, 2019, available
at
https://abcnews.go.com/Business/doj-sec-investigatingjohnson-johnson-asbestos-related-claims/story?id=61209442 (visited Apr. 19, 2021).

15
are won on the battle field by legions who are the
most ruthless * * * it is imperative we overcome the
inertia of our past to modernize and mobilize our defenses and our offenses so we enter into battle with
the outcome assured.” Tr.5399; PX9718.
J&J took that advice to heart and was indeed ruthless with its perceived opponents. For example, after
the New York Mt. Sinai Medical Center and the FDA
documented asbestos in J&J’s talc, J&J created an
enemies list of scientists who dared conclude there
was asbestos in talc.6 J&J’s enemies list included Dr.
Irving Selikoff, America’s foremost medical expert on
asbestos related diseases and epidemiology,
Dr. Arthur Langer of Mt. Sinai; the Director of the
Environmental Protection Agency of New York City;
the FDA; and New York University.
J&J’s strategy was effective in disrupting research
and reporting on asbestos in talc, with its threats
leading to suppressed evidence and findings.
PX5327. For example, J&J, a major donor to the Mt.
Sinai School of Medicine, demanded that Dr. Langer
withdraw previous findings of asbestos in talc and
suppress recent asbestos findings. Tr.5376.7
J&J was also effective in disrupting government
oversight and regulation. First, it threatened to sue
the FDA if it disclosed that the agency had found asbestos in talc. DX8371. Then J&J lied to the FDA and
6Lisa Girion, Johnson & Johnson knew for decades that asbestos lurked in its Baby Powder, REUTERS, supra at 2 n. 2.

It is ironic that J&J views the success of threats as a supporting fact rather than a damning one. Pet.5.
7

16
told it that no asbestos had ever been found in J&J
talc. See Tr.5377. J&J also misled the National Institute of Occupational Health and Safety (NIOSH),
which attempted to study J&J’s Vermont talc mine,
by promoting a false impression of “minimal quantities of undesirable minerals” in J&J’s talc and by
“creat[ing] a mystique around our talc involvement
through our operations and factual knowledge.”
PX8485 & Tr.4046-47. J&J even blocked the National
Toxicology Program from listing talc as a carcinogen,
by arguing, amazingly, that prior studies linking talc
with ovarian cancer were the result of asbestos contamination that it falsely claimed no longer existed in
“current” talc. Tr.4336-81; PX1675, PX4129, PX4131,
PX4150 & PX4161. As for OSHA, J&J caused it to
thr[o]w in the towel” rather than expend limited resources on the geological versus health-based definition of asbestos. PX8. Such tactics were effective at
warding off stronger government action for decades.8

Once again, it is ironic that J&J touts the effectiveness of its
deceitful tactics as a positive fact rather than a damning one.
Compare Pet. 6 (touting lack of FDA required warning label),
with supra at 12-13, 15-16 (discussing J&J efforts to prevent effective testing at FDA and concealing its own positive test results); Tr.4397 & DX7214 (FDA complaining about poor testing
and “limited cooperation” and noting that “these results do not
prove that most or all talc or talc-containing cosmetic products
currently marketed in the United States are likely to be free of
asbestos contamination”).
8

17
C. The evidence demonstrated severe
physical harm, and J&J’s indifference
to the human costs of its deceit.
Ovarian cancer is one of the deadly consequences
of asbestos exposure. App. 97a-98a. The evidence before the jury showed that J&J knew since at least the
early 1970s that both talc and asbestos had been
found in the tumors of women with ovarian cancer.
PX4804; Tr.4268; PX7379; PX3997; Tr.3334. And as
J&J and, unfortunately, the members of this amicus
National Women’s Health Network well know, ovarian cancer is a devastating, painful, and almost certainly terminal disease. App. 97a-98a; infra at 19-20.
Yet despite that knowledge, J&J prioritized profit
and image over the dangers to its customers. For example, in debating how to handle the asbestos in talc
problem in the early 1970s, J&J executives recognized that cornstarch was a viable, safer alternative:
“Corn Starch is obviously another answer. The product by its very nature does not contain fibers. Furthermore, it is assimilated by the body.” PX40; see also Tr.3959. Indeed, in 2008, J&J’s Global Creative
Director went on a “mission to remove talc,” writing
that J&J should “simply replace the talc ingredient
with cornstarch,” as this would “align with our Best
for Baby charter.” Tr.4383; PX10. J&J knew that talc
has no medicinal value, and that “wherever placed it
serves as a foreign body.” PX20.
But cornstarch would have had a high price point,
costing J&J profits. PX57. More importantly, J&J executives did not want to abandon Baby Powder and
substitute it with “Johnson’s Cornstarch,” because
Baby Powder “represents the cornerstone of our baby

18
products franchise.” Tr.4255. Despite knowing that
its baby product contains asbestos, J&J would not replace it with cornstarch, because Baby Powder was
its “golden egg.” Tr.5404. J&J’s internal marketing
documents explained that it captured the market for
all its products by engendering an emotional bond in
infancy due to the distinctive smell and remembrance
of touch from its Baby Powder. Tr.5402. That smell
then captures brand loyalty for the entire company’s
products. Tr.5402-5403; PX2821.
Not only did J&J conceal the dangers to preserve
its brand image, it doubled down on claiming that its
products designed for babies are safe. For decades,
J&J assured its users that Johnson’s Baby Powder
was “purest protection,” Tr.5386, even though internally it was advised it could not say its talc offered
“purest protection.” PX7821.
In the 1970’s J&J drastically increased its marketing to try to take over the adult market. Tr.5385. In
1977, J&J spent three times more on marketing its
cosmetic talc than any competitor. Tr.5384. By the
1990’s, J&J had developed a strategy to target African American and Hispanic women. Susan Berfield,
Jef Feeley & Margaret Cronin Fisk, Johnson & Johnson Has a Baby Powder Problem, BLOOMBERG, Mar.
31, 2016, https://www.bloomberg.com/features/2016baby-powder-cancer-lawsuits/ (visited Apr. 19, 2021);
https://www.bloomberg.com/features/2016-babypowder-cancer-lawsuits/img/ baby_powder_major_
opportunities_and_major_obstacles.pdf (J&J “Major
Opportunities” marketing memo) (visited Apr. 19,
2021). In 2005, J&J launched the Shower to Shower
Business Plan to target African Americans and His-

19
panics. Tr.5385. In 2016, J&J sent representatives to
speak with physicians to deny that talc contains asbestos. Tr.5385. J&J launched these aggressive campaigns while at the same time recognizing that a
“major obstacle” was the “cancer linkage” from exposure to talc.9 In 2017, an email to the Board of Directors put asbestos in talc on the agenda to discuss only
“reputational risk,” with no mention of any potential
harm to J&J’s consumers. Tr.5414. And, unlike some
of its competitors, J&J’s concern for reputation and
profit was so strong that it would not even put a
warning label on its talc products. Tr.4339. As J&J’s
safety vice-president conceded at trial, she would not
buy product with a warning that it “might have asbestos.” Tr.4277.
Rather than transitioning away from a talc-based
product it knew contained asbestos, J&J dug in its
heels. J&J’s marketing director, after pushing to
eliminate talc, finally threw in the towel, concluding:
“Baby Powder is such a sacred cow that we’re just going to leave it alone.” Tr.4252; PX55.
As a result of J&J’s prioritization of profits and
image over health and safety, each plaintiff contracted almost certainly terminal ovarian cancer, requiring “chemotherapy, hysterectomies, and countless
other surgeries.” App.97a. These medical procedures
in turn caused hair loss, sleeplessness, mouth sores,
loss of appetite, seizures, neuropathy, and other infections. App.97a-98a. Six of the plaintiffs had died
by the time of trial, and three have died during the
9 Susan Berfield, et al., Johnson & Johnson Has a Baby Powder Problem, supra.

20
appeal. App. 98a & n. 26.10 In short, a diagnosis of
ovarian cancer ensures a path of terror, loss of intimacy, pain, chemotherapy, extraordinary medical expenses, and final goodbyes to one’s family and
friends. The jury was fully justified in awarding compensatory and punitive damages that both compensated for the harm and attempted to deter any future
similar conduct by J&J or any other business marketing to babies, children, and women.
*****
Each of these factors—the knowledge of asbestos
in talc and its dangers, the concealment of those dangers and obstruction of others seeking to research or
regulate those dangers, and the prioritization of profits over human life and suffering, all mark this case
as involving some of the most egregious conduct possible. It should thus be no surprise that the jury and
the courts below rendered and affirmed a large punitive damages award. Such award was amply justified
under this Court’s precedent and raises no red flags
or cert.-worthy issues.

10 Most women (65-70%) with Stage III cancer will not survive
five years, and 85% with Stage IV will not survive five years.
Tr.5042-5043.

21
II. The Link between Asbestos and Ovarian
Cancer Is Well Supported by Strong Science
over Decades.
It is undisputed that asbestos exposure causes
ovarian cancer. J&J knew since the early 1970’s, at
the time of Respondents’ exposures, that talc and asbestos had been found in the tumors of women with
ovarian cancer. PX4804; Tr.4268; PX7379; PX3997;
Tr.3334. J&J’s employee in charge of talc safety,
Dr. Susan Nicholson, conceded that asbestos translocates to the ovaries when you breathe it. Tr.4346.
Of the ten plaintiffs who had their pathology studied for asbestos, eight out of the ten showed asbestos
in the lymph nodes surrounding the area where the
ovarian tumor was removed. Tr.1743-49; Tr.1753-56;
Tr.1801.
In the face of this linkage, J&J claims there is no
epidemiology showing a link between use of talc and
ovarian cancer. Pet. 5. But that claim has been resoundingly rejected by not only the court of appeals
below, but also by both the federal and state courts in
J&J’s home state. See In re: Johnson & Johnson Talcum Powder Prods., 2020 WL 8968851, at *25-*50
(holding under the Daubert standard that Plaintiffs’
medical experts had reliable data supporting their
opinions that talc exposure causes ovarian cancer);
Carl v. Johnson & Johnson, 464 N.J. Super. 446, 46587 (2020) (holding trial court abused its discretion in
finding that plaintiffs’’ experts did not have sound
methodology in concluding that exposure to talc causes ovarian cancer after conducting a detailed analysis

22
of the relevant factors for evaluating scientific evidence).
In response to overwhelming direct and indirect
evidence of causation, J&J cites to studies that suffer
from fatal deficiencies, just as J&J relied on studies
of miners and millers that J&J knew would show
nothing given their inherent flaws. See, e.g., PX8485
(J&J predicting “with a high level of certainty” the
negative outcome of the Vermont talc miner and miller study, given the insufficient latency time” allowed
for in the study). Specifically, the ovarian talc studies
upon which J&J relies did not follow the subjects long
enough for cancer to occur (the latency period for
ovarian cancer can be as long as 30-40 years from exposure), and the studies only looked at genital usage,
and did not account for substantial exposures arising
from full-body use. Tr.3458-59; Tr.3323; Tr.3424-25,
Tr.3458-59, Tr.3632; PX335; Tr.5563-67. Further,
J&J’s experts could not identify any of its studies in
which the cohorts used talc in the same manner, frequency, and duration as the Plaintiffs. Tr.4855-57;
Tr.5580-84; Tr.5589-97; Tr.5657.
Furthermore, the intended use of J&J’s talc products and the ensuing exposure further corroborate
the causal connection between asbestos in talc and
ovarian cancer. Using J&J talc powder as prescribed,
the users shake the talc into their breathing zone and
onto their body and vaginal area. The asbestos fibers
thus become respirable, both during the time the bottle is shaken, afterwards while the fibers remain airborne. Tr.3290-3291. Additionally, application to the
vaginal region increases exposure of the ovaries because talc migrates to the ovaries both through the

23
vaginal route and the inhalation route. Tr.3332;
PX4795; Tr.3327-29.11
Plaintiffs’ expert in industrial hygiene calculated,
based on studies performed by NIOSH and J&J, that
the levels of asbestos exposure to the Plaintiffs from
their use of J&J talc were the equivalent of those
working in commercial settings with asbestos, such
as construction, and thus in high enough quantifies
to cause Plaintiffs’ ovarian cancer. Tr.3460; Tr.35463594; Tr.2084-2085; see also Tr.4825-4826 (studies
showing talc exposure linked to ovarian cancer). But
unlike in the construction trades, none of the Plaintiffs were told to wear any protective mask or respirator while using J&J cosmetic talc products.
Once again, J&J’s complaints on questions soundly
and properly rejected by the jury and the court of appeals are merely red herrings seeking attention for
its petition, though not themselves raising issues
proper for or worthy of this Court’s attention.
*****
Punitive damages are aimed “principally at retribution and deterring harmful conduct.” Exxon Shipping Co. v. Baker, 554 U.S. 471, 492 (2008). Here, the
jury was properly instructed on these “twin goals of
punitive awards.” Id. at 492-493. Tr.6250; see also

A study of stillborn infants whose mothers had used talc
proved that asbestos travels through the blood, as is evidenced
that it traveled through the placenta and into the babies in
utero. Tr.3341; PX292.
11

24
Tr.6250.12 In light of the extraordinary reprehensibility of J&J’s conduct and the highly fact-bound nature
of the inquiry, the large award was amply justified
and does not pose any genuine constitutional issues
for this Court to review.
CONCLUSION
For the foregoing reasons, this Court should deny
the Petition for a writ of certiorari.

12 While J&J woefully complains, Pet. 8, 11, that reading the
jury instructions took a long time, it ignores that the jury also
had the instructions in the jury room to refer to as it addressed
the individual verdict forms for each plaintiff. Tr.5950 & 6100.

25

Respectfully submitted,
ERIK S. JAFFE
(Counsel of Record)
SCHAERR | JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
DENYSE F. CLANCY
KAZAN, MCCLAIN,
SATTERLEY & GREENWOOD
55 Harrison Street
Oakland, CA 94607
(877) 995-6372
dclancy@kazanlaw.com
JOHN EDDIE WILLIAMS
BRIAN ABRAMSON
WILLIAMS HART BOUNDAS
EASTERBY LLP
8441 Gulf Freeway
Houston, TX 77017
(713) 230-2200
jwilliams@whlaw.com
Counsel for Amicus Curiae

Dated: April 19, 2021

